No. 20-1199

In the Supreme Court of the United States
STUDENTS FOR FAIR ADMISSIONS, INC.,
Petitioner,
v.
PRESIDENT & FELLOWS OF HARVARD COLLEGE,
Respondent.
_________
On Petition For A Writ of Certiorari to the
United States Court of Appeals For The First
Circuit
_________
AMICI CURIAE BRIEF OF JUDICIAL WATCH,
INC. AND ALLIED EDUCATIONAL
FOUNDATION IN SUPPORT OF PETITIONER
_________
ROBERT D. POPPER
ERIC W. LEE
JUDICIAL WATCH, INC.
425 Third Street, SW
Suite 800
Washington, DC 20024
(202) 646-5172
T. RUSSELL NOBILE
JUDICIAL WATCH, INC.
P.O. Box 6592
Gulfport, MS 39506
(202) 527-9866
LEGAL PRINTERS

LLC

H. CHRISTOPHER COATES
Counsel of Record
LAW OFFICES OF H.
CHRISTOPHER COATES
934 Compass Point
Charleston,
South Carolina 29412
Phone: (843) 609-7080
curriecoates@gmail.com

! Washington, DC ! 202-747-2400 ! legalprinters.com

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES ...................................... ii
IDENTITY AND INTERESTS
OF AMICI CURIAE .........................................1
SUMMARY OF ARGUMENT.....................................2
ARGUMENT ...............................................................5
I.

Past Rulings That Failed To Enforce The
Equal Protection Clause’s Prohibition
Against Racial Classifications Have Not
Stood The Test of Time. ..............................5

II.

Universities And Lower Courts Have
Struggled For Forty-Three Years To
Reconcile This Court’s Precedent On RaceBased Admission Programs ........................7

III.

Given The Conflict And Ambiguity
Produced By The Bakke Line Of Cases, This
Court Should Grant Certiorari To Consider
Whether It Should Reverse This Line of
Precedent. .................................................14

IV.

In The Alternative, This Court Should
Grant Certiorari To Determine Whether
Harvard’s Race-Based Admissions Program
Fails Strict Scrutiny Because A Workable
Race-Neutral Alternative Exists. ............21

CONCLUSION ..........................................................25

ii
TABLE OF AUTHORITIES
Cases

Page(s)

Adarand Contractors, Inc. v. Pena,
515 U.S. 200 (1995) .....................................10, 20
Brown v. Board of Education,
347 U.S. 483 (1954) ............................................6
Fisher v. Univ. of Tex.,
570 U.S. 297 (2013) .................................. passim
Fisher v. Univ. of Tex.,
136 S. Ct. 2198 (2016) ............................... passim
Gratz v. Bollinger,
539 U.S. 244 (2003) ................................... passim
Grutter v. Bollinger,
539 U.S. 306 (2003) ................................... passim
Hirabayashi v. United States,
320 U.S. 81 (1943) ...............................................6
Korematsu v. United States,
323 U.S. 214 (1944) .........................................6, 7
Miller v. Johnson,
515 U.S. 900 (1995) ...........................................15
Parents Involved in Cnty. Sch. v. Seattle
Sch. Dist., 551 U.S. 701 (2007) ............. 20, 21, 23

iii
Plessy v. Ferguson,
163 U.S. 537 (1896) ................................ 3, 5, 6, 7
Regents of Univ. of Cal. v. Bakke,
438 U.S. 265 (1978) ................................... passim
Richmond v. J. A. Croson Co.,
488 U.S. 469 (1989) ...........................................15
Schuette v. Coal. to Defend Affirmative Action,
572 U.S. 291 (2014) ...........................................19
SFFA v. President and Fellows of Harvard Coll.,
980 F.3d 157 (1st Cir. 2020) ................. 18, 19, 23
Trump v. Hawaii, 138 S. Ct. 2392 (2018) .................7
Federal Statutes
42 U.S.C. § 2000d ....................................................2, 5
Other Authorities
Heather Mac Donald, The Diversity Delusion:
How Race and Gender Pampering Corrupt the
University and Undermine Our Culture
(New York: St. Martin’s Press, 2018) ............11

1
IDENTITY AND INTERESTS OF AMICI
CURIAE 1
Judicial Watch, Inc. (“Judicial Watch”) is a
non-partisan,
public
interest
organization
headquartered in Washington, D.C. Founded in
1994,
Judicial
Watch
seeks
to
promote
accountability, transparency and integrity in
government, and fidelity to the rule of law. Judicial
Watch files amicus curiae briefs in cases involving
issues it believes are of public importance, including
cases involving race-based affirmative action
programs in higher education. See, e.g., Brief of
Amicus Curiae Judicial Watch, Inc. in Support of
Plaintiffs-Appellants and Reversal of the District
Court’s Judgment in the First Circuit, Students for
Fair Admissions, Inc. v. President and Fellows of
Harvard College, No. 19-2005; and Brief of Amici
Curiae Judicial Watch, Inc. and Allied Educational
Foundation in Support of Petitioner, Fisher v. Univ.
of Tx. at Austin, 136 S. Ct. 2198 (2016) (No. 14-981).
The Allied Educational Foundation (“AEF”) is
a nonprofit charitable and educational foundation
based in Englewood, New Jersey. Founded in 1964,
AEF is dedicated to promoting education in diverse
areas of study. AEF regularly files amicus curiae
briefs as a means to advance its purpose and has
Amici state that no counsel for a party to this case authored
this brief in whole or in part; and no person or entity, other than
amici and their counsel, made a monetary contribution intended
to fund the preparation and submission of this brief. Amici
sought and obtained the consent of all parties to the filing of this
amici curiae brief.
1

2
appeared as an amicus curiae in this Court on many
occasions.
Amici has an interest in jurisprudence
concerning race-based education policies, particularly
as they relate to the Fourteenth Amendment’s Equal
Protection Clause. The First Circuit’s adoption of
Harvard’s
explicit
race-based
criteria
is
fundamentally at odds with precedent of this Court,
notably where the college’s interest could be achieved
with a race-neutral objective, and this case presents
an excellent vehicle to address a fundamental
problem in this Court’s Equal Protection
jurisprudence.
Amici curiae respectfully request this Court
grant Petitioner’s Writ of Certiorari and reverse the
court of appeals’ judgment.
SUMMARY OF ARGUMENT
In this case Petitioner Students For Fair
Admissions (“SFFA”) filed suit against Harvard in
2014 under Title VI of the Civil Rights Act of 1964,
42 U.S.C. §2000d. Therein it alleged that Harvard’s
admissions program intentionally discriminated
against Asian American applicants based on their
race.
Harvard’s admissions program gives
preference to African Americans and Hispanics, but
it does not afford such preference to Asian
Americans.
Accordingly, Harvard’s race-based
admissions program plays an integral part in the
admission or rejection of Asian American applicants.

3
Amici curiae first note that, in past landmark
cases where this Court ruled that racial
classifications did not violate the Equal Protection
Clause of the Fourteenth Amendment, this Court
determined later that such rulings were in error and
reversed them. See, e.g., Plessy v. Ferguson, 163 U.S.
537 (1896).
Race-based admissions programs for higher
education have been the subject of this Court’s
attention in five major cases in the last 43 years. See
Regents of Univ. of Cal. v. Bakke, 438 U.S. 265 (1978);
Gratz v. Bollinger, 539 U.S. 244 (2003); Grutter v.
Bollinger, 539 U.S. 306 (2003); Fisher v. Univ. of Tex.,
570 U.S. 297 (2013) (Fisher I); and Fisher v. Univ. of
Tex., 136 S. Ct. 2198 (2016) (Fisher II). In each of
these cases this Court has grappled with the issue of
whether the Equal Protection Clause allows schools
of higher learning to take race into account in
admissions decisions and, if so, what test(s) were
applicable for identifying permissible race-conscious
decision making.
These rulings have generated numerous
opinions, pluralities, concurrences, and dissents,
many of which conflict in fundamental and
significant ways. These decisions achieved little
consensus regarding whether race-based admissions
programs can be implemented without violating
equal protection principles and have not provided a
workable construct for the lower courts and school
officials in reviewing and implementing race-based

4
admissions programs. The Bakke line of cases’ 2 use
of the strict scrutiny test has not meaningfully
assisted courts and schools in identifying admissions
programs that are constitutionally impermissible.
Instead, encouraged by the possibility of meeting the
strict scrutiny standard under that line of cases,
schools have camouflaged, or been less than candid,
about their desire to simply increase their number of
minority students, as Justice Ginsburg predicted
they might. Gratz, 539 U.S. at 305 (Ginsburg, J.,
dissenting) (affirmative action will be achieved
“through winks, nods, and disguises”). This Court
should grant Petitioner’s writ of certiorari to
reconsider whether race-based admissions programs
should ever be permitted – and not simply to try
(again) to adjust the strict scrutiny standard in a way
that permits such programs.
In addition, this Court should grant certiorari
to consider whether Respondent carried its burden to
prove that race-neutral alternatives to admission
program did not exist. Unless Respondent carried
this burden, Petitioner is entitled to a reversal of the
judgment of the First Circuit on this issue alone.

The term “Bakke line of cases” or “Bakke and its progeny”
refers to the five precedents of this Court that specifically
address the constitutionality of race-based school admissions
programs at the higher education level, i.e., Bakke, Gratz,
Grutter, Fisher I and Fisher II.
2

5
ARGUMENT
I.

Past Rulings That Failed To Enforce The
Equal Protection Clause’s Prohibition
Against Racial Classifications Have Not
Stood The Test of Time.

Rulings by this Court which held that under
the Equal Protection Clause individuals may be
treated differently based on race have been
wrongfully decided. 3 Indeed, amici respectfully
submit that these cases number among the most
famous missteps in the history of Supreme Court
jurisprudence. In Plessy v. Ferguson, 163 U.S. 537
(1896), the petitioner challenged a Louisiana law that
required all passenger railroads to “provide equal but
separate accommodations for the white, and colored
races.” Id. at 540. In upholding this segregation law,
this Court reasoned that the “object of the
[Fourteenth] amendment” was to enforce the equality
of the two races before the law, “but in the nature of
things it could not have been intended to abolish
distinctions based upon color,” or to require “the
commingling of the two races.” Id. at 544.
Plessy’s approval of the “separate but equal
doctrine” stayed in effect for 58 years, providing legal
justification for a multitude of Jim Crow segregation
Since Harvard is a private institution, this case was decided
under §601 of Title VI of the Civil Rights Act of 1964, 42 U.S.C.
§2000d. Title VI is coextensive with the Equal Protection Clause
of the Fourteenth Amendment. Bakke, 438 U.S. at 287 (Powell,
J., opinion of the Court).

3

6
laws that thwarted the racial integration of American
society. This Court finally rejected Plessy in Brown v.
Board of Education, 347 U.S. 483, 495 (1954) (“We
conclude that in the field of public education the
doctrine of ‘separate but equal’ has no place.”).
However, by failing to uphold the core guarantee of
the Equal Protection Clause, Plessy did immense
damage to the very concept of equal protection of the
laws. 4
Two other decisions that the Court later
overturned involved the rights of Japanese
Americans. In Korematsu v. United States, 323 U.S.
214 (1944), a U.S. citizen of Japanese descent was
convicted of remaining in a military area from which
all Japanese Americans had been excluded. Id. at
215-16. Relying on Hirabayashi v. United States, 320
U.S. 81 (1943), which approved a curfew order
applying to those of Japanese ancestry, this Court
reasoned that “exclusion from a threatened area, no
less than curfew, has a definite and close relationship
to the prevention of espionage and sabotage.”
Korematsu, 323 U.S. at 218.
Importantly, the
government did not claim that “petitioner’s loyalty to
the United States” was at issue, only his race. Id. at
216. The majority in Korematsu determined that this
race-based program had to satisfy strict scrutiny (id.)
but went on to conclude that national security needs
Only one justice dissented in Plessy, stating that upholding
the constitutionality of such racial segregation laws “will
encourage the belief that it is possible . . . to defeat the beneficent
purposes” of the Equal Protection Clause and warning that those
laws would “permit the seeds of race hate to be planted under
the sanction of law.” 163 U.S. at 560 (Harlan, J., dissenting).
4

7
during a time of war were sufficient constitutional
justification to sanction this race-based confinement
of American citizens. Id. at 223-24. These two cases,
like Plessy, have not withstood the test of time. See
Trump v. Hawaii, 138 S. Ct. 2392, 2423 (2018)
(overruling Korematsu).
In each of these three cases, the Court ruled
that treating individuals differently based on a racial
classification did not violate the Equal Protection
Clause. In each of these cases, the Court found that
the government had justified its disparate treatment
under the strict scrutiny test. These infamous cases
demonstrate how misguided it is for this Court to
sanction
discriminatory
racial
classifications.
Certiorari is necessary here so that the Court may
determine whether racial classifications in higher
education admissions are ever sanctioned under the
Equal Protection Clause.
II.

Universities And Lower Courts Have
Struggled For Forty-Three Years To
Reconcile This Court’s Precedent On
Race-Based Admission Programs.

The Bakke line of cases has failed to provide
guidance
to
lower
courts
and
university
administrators about what constitutes a permissible
race-based admission program. Bakke has led to five
rulings over 43 years, in which there are 26 separate
opinions. In each, the Court attempts to explain the
constitutional rationale for allowing race-based
preferences – even though these plainly conflict with

8
the original meaning and text of the Equal Protection
Clause.
In Regents of Univ. of Cal. v. Bakke, 438 U.S.
265 (1978), this Court addressed the constitutionality
of a university admissions program that used race for
the purpose of increasing minority student
admissions. Bakke produced six separate opinions,
but no majority. A plurality agreed that the
respondent’s admission application for medical school
had been illegally rejected and that he was entitled to
the injunctive relief – admission to the school –
granted to him by the lower court. Id. at 284-324, 40821.
Justice Powell wrote an extensive opinion that
included a detailed explanation of how he believed
schools could devise constitutionally acceptable
admissions programs that used racial classifications
for the purpose of achieving student body diversity.
Id. at 319-24, n.55. He attached a copy of Harvard’s
admissions plan in effect in 1978, a predecessor
program to the one under challenge in this case. That
plan, unlike the admissions program challenged in
Bakke, was based on the need for student body
diversity to achieve educational benefits. But four
justices dissented from the portion of Justice Powell’s
opinion which concluded that a program aimed at
student body diversity could be a constitutionally
acceptable admissions program while incorporating
race as one of its factors. Id. at 408-21; see id. at 411
(Stevens, J., concurring in the judgment in part and
dissenting in part) (“It is therefore perfectly clear that
the question whether race can ever be used as a factor

9
in admissions is not an issue in this case, and that
discussion of that issue is inappropriate.”).
Four other justices in Bakke concurred with the
part of Justice Powell’s opinion that described what a
race-conscious affirmative action program would need
to pass strict scrutiny. On the other hand, these four
justices dissented from the portion of the Powell
opinion that appeared to agree with the lower court
ruling prohibiting race from ever being used as a
factor in school admissions. Id. at 355-79.
Thus, the Bakke line of cases was born 43 years
ago in a state of confusion arising from conflicting
opinions on the issue of whether and to what extent
the race or ethnicity of an individual applicant may
be constitutionally considered in the area of higher
education admissions. The notion that the Equal
Protection Clause allows individuals to be treated
differently because of their race in school admissions
in order to achieve student body diversity for
educational purposes split this Court, as reflected by
the “fractured decision in Bakke.” Grutter, 539 U.S.
at 325.
Twenty-five years after Bakke, this Court
heard two University of Michigan school admission
cases, one arising at the undergraduate college and
the other at the law school. See Gratz v. Bollinger,
539 U.S. 244 (2003); Grutter v. Bollinger, 539 U.S. 306
(2003). In Gratz, it was undisputed that the
University gave each minority applicant twenty
additional points in order to “admit ‘virtually every

10
qualified . . . applicant’ from . . . [minority] groups” to
its undergraduate school. 539 U.S. at 253-55.
The majority in Gratz stated “that the
University’s use of race in its . . . admission program
[must] employ[] ‘narrowly tailored measures that
further compelling governmental interests,’ ” Id. at
270, quoting Adarand Contractors, Inc. v. Pena, 515
U.S. 200, 227 (1995). In striking down the race-based
admissions program in Gratz, the majority held that
the undergraduate school’s policy of “distributing . . .
one-fifth of the points needed to guarantee admission”
to every minority applicant “solely because of race, is
not narrowly tailored to achieve the interest in
educational diversity,” on which the undergraduate
school had relied. 539 U.S. at 270. (emphasis added).
Gratz produced seven divergent opinions: the
majority, two concurrences, a concurrence in the
judgment, and three dissents.
In Grutter, the University of Michigan Law
School’s admissions program claimed it considered
race or ethnicity in order to enroll a “critical mass” of
minority students so as to produce a diverse student
body that, “promotes learning outcomes,” and
prepares students to work in an increasingly diverse
workforce. 539 U.S. at 316, 319, 330. However, these
aspirational goals, while admirable, may have little,
if anything to do, with what is actually occurring on
college campuses. 5 Such speculative hopes clearly
5
See Grutter, 539 U.S. at 349 (Scalia, J. concurring in
part and dissenting in part) (criticizing universities that “talk of
multiculturalism and racial diversity,” but support “tribalism

11
should not be justifications for the use of race-based
admissions plans.
Grutter generated six written opinions: the
opinion of the Court, a concurring opinion, two
dissenting opinions, and two opinions concurring in
part and dissenting in part. The five-to-four majority
held that “student body diversity is a compelling state
interest that can justify the use of race in university
admissions.” Id. at 325. Grutter did apply the strict
scrutiny test to Michigan Law School’s racial
classifications in its admissions program. Id. at 326.
Grutter then concluded that this program passed the
strict scrutiny test and was constitutionally
permissible. Id. at 337-44.
and racial segregation on their campuses,” including “minority
only student organizations, separate minority housing
opportunities, separate minority student centers, even separate
minority only graduation ceremonies”). In addition, recent
student demands for the establishment of “safe-zones” on
campuses where students are assured of not hearing statements
with which they disagree, and student protests that shut down
speakers who have been invited to campus to speak about racial
issues do not reflect tolerance for the articulation of diverse
thoughts on campuses. See Heather Mac Donald, The Diversity
Delusion: How Race and Gender Pampering Corrupt the
University and Undermine Our Culture (New York: St. Martin’s
Press, 2018, pp. 1-33).
College and university administrators might promote
greater cross-racial understanding and tolerance in their
students, not by racially discriminating against applicants for
admission to their schools, but by working to make their schools
more tolerant of the expression of different points of view.
Admissions programs that intentionally discriminate on the
basis of race may themselves be negatively affecting the level of
racial understanding and tolerance on today’s college campuses.

12

Fisher v. Univ. of Tex., 570 U.S. 297, 300-15
(2013) (Fisher I) concerned a challenge to the legality
of the University of Texas’ undergraduate admissions
plan. While the program did not assign a “numerical
value for each applicant” on the basis of race, it did
have a goal of creating a “critical mass” of minority
students. Id. at 301. This Court determined that the
court of appeals’ ruling at issue in Fisher I must be
vacated and remanded because that court had not
held “the University to the demanding burden of
strict scrutiny articulated in Grutter.” Id. at 303.
Importantly, this Court reasoned that “strict
scrutiny imposes on the university the ultimate
burden of demonstrating, before turning to racial
classifications, that available, workable race-neutral
alternatives do not suffice.” Id. at 312. In addition,
Fisher I stated that “[s]trict scrutiny does not permit
a court to accept a school’s assertion that its
admissions process uses race in a permissible way
without a court giving close analysis to the evidence
of how the process works in practice.” Id. at 313.
After the case was heard on remand by the Fifth
Circuit, it returned to this Court on a second grant of
certiorari. Fisher v. Univ. of Tex., 136 S. Ct. 2198,
2205 (2016) (Fisher II).
Fisher II ruled in favor of the University of
Texas by a 4-3 margin. There were three opinions in
Fisher II: the opinion of the Court, and two dissenting
opinions. The majority in Fisher II stated that “a
university may institute a race-conscious admissions
program as a means of obtaining ‘the educational

13
benefits that flow from student body diversity.’” Id.
at 2210.
The four-person majority found that
“enrolling a diverse student body ‘promotes crossracial understanding, helps to break down racial
stereotypes, and enables students to better
understand persons of different races.’” Id., quoting
Grutter, 539 U.S. at 330. Fisher II determined that
the University had carried its burden of proving that
the use of the admissions plan enacted by the Texas
Legislature in 1998 (the Top Ten Percent Plan) 6 had
not achieved sufficient racial diversity.” Id. at 221012.
The Fisher II majority concluded that the
University had “met its burden of showing that the
admissions policy it used was narrowly tailored,” and
therefore held the school’s admissions program
constitutional. Id. at 2212-15. But see, id. at 2232
(Alito, J. dissenting) (referring to the university’s
purported need for “affirmative action to admit
privileged minorities,” rather than disadvantaged
minorities, as “affirmative action gone wild.”).
The splintered rulings in Bakke, Gratz, Grutter,
Fisher I, and Fisher II, show that the law regarding
race-conscious school admissions is both in a state of
considerable conflict and ambiguity.
These
The Top Ten Percent Law, which guaranteed that individuals
graduating from a Texas high school in the top ten percent of
their class would be admitted to the University of Texas was
used as a principal part of the admission process for the
university through 2004. Id. at 2205. As a result of Grutter, the
admissions process at the University of Texas began to rely on
race explicitly in allocating approximately 25 percent of the seats
in any given incoming class. Fisher II, 136 S. Ct. at 2205-06.

6

14
convoluted precedents do not constitute a clear road
map for schools or lower courts to follow regarding the
constitutionality of race-conscious admissions plans.
III.

Given The Conflict And Ambiguity
Produced By The Bakke Line Of Cases,
This Court Should Grant Certiorari To
Consider Whether It Should Reverse This
Line Of Precedent.

The Bakke line of cases was a well-intended
effort by this Court to address the issue of minority
student
admissions
in
higher
education.
Notwithstanding this effort, Bakke and its progeny
have not provided a method to meaningfully
distinguish between the goal of increasing minority
student numbers and that of creating educational
benefits flowing from diversity. The Courts’ strict
scrutiny inquiry is not working. Quite simply, the
strict scrutiny defense provides an opportunity for
schools to camouflage their desire to use raceconscious programs to increase minority student
admissions. This strict scrutiny analysis looks at
school rationales that are both subjective and
unquantifiable, 7 and thus cannot meaningfully
determine whether race-based programs are
narrowly tailored. This reason alone is sufficient to
For example, how does one objectively correlate the amount
of “cross-racial” educational benefit with the percentages of
minority students in a class? Such relationships are subjective
and cannot be quantified. But the strict scrutiny review provides
schools a way to avoid the prohibitions of the Equal Protection
Clause by claiming such subjective benefits.

7

15
grant review and to reconsider the validity of the
Bakke line of cases.
Another reason this Court should reconsider
Bakke and its progeny is the textual language of the
Equal Protection Clause itself. It commands, “no
state shall . . . deny to any person 8 within its
jurisdiction the equal protection of the laws.”
(emphasis added).
The Fourteenth Amendment
contains no exceptions to the Equal Protection
Clause’s prohibition against the use of race. This
Court has repeatedly stated that the equal protection
prohibition against racial discrimination adversely
affecting an individual is at the very core of the Equal
Protection Clause. See e.g., Richmond v. J. A. Croson
Co., 488 U.S. 469, 518 (1989) (Kennedy, J., concurring
in part and concurring in judgment); Miller v.
Johnson, 515 U.S. 900, 911 (1995) (O’Connor, J.,
dissenting) (“At the heart of the Constitution’s
guarantee of equal protection lies the simple
command that the Government must treat citizens as
individuals, not as simply components of a racial,
religious, sexual or national class.”) (citation and
internal quotation marks omitted)).
Nor does the text of the Fourteenth
Amendment refer to strict scrutiny tests or any
defenses that may justify the use of racial
If Ohio Congressman John Bingham and other framers of
the Fourteenth Amendment had wanted to limit the protections
of the Equal Protection Clause to African Americans and other
racial minorities, the framers would not have used the term “any
person” in the text of the Amendment.

8

16
classifications. Indeed, the acceptance of a strict
scrutiny defense for the use of race in school
admissions (i.e., the purported educational benefits
from increased minority diversity) was judicially
created and can be judicially abrogated. 9
Second, the Bakke line of cases’ rationale for
allowing consideration of race to be used has now been
in effect for 43 years. Indeed, several of the justices
of this Court who were instrumental in developing the
student diversity for educational purposes defense
incorrectly envisioned that this use of race would not
become a long-term or permanent feature of this area
of the law. See Bakke, 438 U.S. at 403 (Blackman, J.,
concurring in the judgment in part and dissenting in
part) (“I yield to no one in my earnest hope that the
time will come when an ‘affirmative action’ program
is unnecessary and is, in truth, only a relic of the past.
I would hope that we could reach this stage within a
decade at the most.”); Grutter, 539 U.S. at 343 (“We
expect that 25 years from now, the use of racial
preferences will no longer be necessary to further the
interest approved today.”)
It has become clear that race-based admissions
preferences will not become “a relic of the past” any
time soon. Demands for such preferences have shown
no signs of abating. These demands will not end, it is
In making this argument, amici curiae do not challenge the
power of this Court to create interpretive rules for claims
brought under federal statutes and provisions of the
Constitution itself. Amici curiae only ask that this Court
reconsider whether the strict scrutiny defense should continue
to be used in school admission cases as a justification for treating
applicants differently on the basis of their race.

9

17
respectfully submitted, until this Court unequivocally
declares that race discrimination in school admissions
programs is violative of the Equal Protection Clause.
See Gratz, 539 U.S. at 281 (Thomas, J., concurring) (“I
would hold that a State’s use of racial discrimination
in higher education admissions is categorically
prohibited by the Equal Protection Clause”).
Third, in some of the school admission cases,
the positions advanced by the universities and the
testimony offered in support of their strict scrutiny
defenses have been quite dubious. See e.g., Fisher II,
136 S. Ct. at 2215 (Alito, J., dissenting) (“To the
extent that [the University of Texas] has ever moved
beyond a plea for deference and identified the
relevant interests in more specific terms, its efforts
have been shifting, unpersuasive, and, at times, less
than candid.”) (emphasis added).
For example, as noted in Fisher II, the
University of Texas’ officials had argued in Fisher I
that they needed to admit minority children of
“successful professionals;” however, in Fisher II, the
same school “attempted to disavow ever making the
argument.” 136 S. Ct. at 2216 (Alito, J., dissenting).
To this, Justice Alito responded that the university
did make the argument in Fisher I and that “the
argument turns affirmative-action on its head.
Affirmative-action programs were created to help
disadvantaged students.” Id. (emphasis added).
These “shifting and unpersuasive” representations
undercut the credibility of the very university
administrators who are requesting that courts allow
them to use race-conscious admissions programs,

18
notwithstanding the clear command of the Equal
Protection Clause.
Likewise here, Harvard’s pre-trial failure to
disclose material facts revealed apparently
disingenuous behavior.
Shortly before the trial
began, Harvard changed its procedures for reviewing
applications for admission to “make sure its
admissions officers did not fall prey to implicit bias or
racial stereotyping about Asians.” JA.3287:18-328823. This highly relevant evidence only came to light
because one of Harvard’s witnesses inadvertently
mentioned it at trial and not because Harvard
produced this evidence pre-trial. App. 106 n.2., App.
121-22.
Given such examples, it is not surprising that
Justice Ginsburg predicted that schools might be less
than candid if courts attempted to take away their
race-based affirmative action programs. See Gratz,
539 U.S. at 304-05 (Ginsburg, J., dissenting) (colleges
and universities “may resort to camouflage” or
“disguise[]” to protect their race-conscious programs
from attack).
In its opinion, the court of appeals noted that
“eliminating race as a factor in admissions . . . would
reduce African American representation at Harvard
from 14% to 6% and Hispanic representation from
14% to 9%.” SFFA v. President and Fellows of
Harvard Coll., 980 F.3d 157, 180 (1st Cir. 2020). The
First Circuit also observed that “at least 10% of
Harvard’s class would not be admitted if Harvard did
not consider race and that race is a determinative tip

19
for approximately 45% of all admitted African
American and Hispanic students.” Id. Given the
dramatic impact that Harvard’s use of race has upon
the racial composition of its student body, Harvard’s
argument that it is using race merely as “a plus” or
“one part of [a] whole-person review,” JA.651:18652:21, is implausible 10 and should not have been
credited by the First Circuit. The First Circuit’s
conclusion that Harvard’s use of race is not grounded
on the school’s desire to increase and racially balance
minority representation, SFFA, 980 F.3d at 187, is
both clear factual error and a misapplication of this
Court’s precedents.
As noted, one of the core purposes of the Equal
Protection Clause is to guarantee that individuals
will be free from discrimination based upon race. It
should come as no surprise to anyone that legalizing
the use of race in deciding who is admitted to schools
of higher learning has caused enormous conflict,
including among members of this Court.
See
Schuette v. Coal. to Defend Affirmative Action, 572
U.S. 291, 325 (2014) (Scalia, J., concurring) (“The
If 10% of a Harvard class or 45% of its African American and
Hispanic admittees would not have been admitted had their race
not been considered, it is irrational to conclude that the use of
race is not a substantial factor driving its admissions process.
Looked at from the point of view of non-preferred applicants, this
45% means that a substantial number of applicants from nonpreferred racial groups were not admitted to Harvard because of
their race. Harvard’s use of race was not merely a “plus” for the
preferred group; it was a minus that discriminated against
applicants from non-preferred racial groups who were not
admitted.

10

20
Equal Protection Clause ‘cannot mean one thing
when applied to one individual and something else
when applied to another color. If both are not
accorded the same protection it is not equal’”),
quoting Bakke, 438 U.S. at 289-290; see also, Fisher
II, 136 S. Ct. at 2221 (Alito, J. dissenting).
It is simply wrong to interpret the Equal
Protection Clause to give greater importance to
increasing the number of minority students at
institutions of higher learning based on race than to
preventing intentional discrimination against
individual applicants because of race. 11 Achieving
racial diversity does not compensate for the
constitutional injury inflicted on innocent individual
applicants from non-preferred racial groups and the
harm that that injury does to race relations generally.
See Parents Involved in Cnty. Sch. v. Seattle Sch.
Dist., 12 551 U.S. 701, 759 (2007) (Thomas, J.
concurring) (“This type of exclusion, solely on the
basis of race, is precisely the sort of government
action that pits the races against one another,
Increased racial diversity in student bodies is a laudable
goal; however, a laudable goal does not justify the use of any
means to achieve that goal. Means that are violative of the
Equal Protection Clause’s core purpose of prohibiting
discrimination on the basis of race should not be deemed
constitutionally acceptable, particularly where, as here, raceneutral methods exist to achieve that goal.
11

This ruling addressed the constitutionality of race-based
student assignment plans for K-12 schools. Parents Involved,
551 U.S. at 709-10. It did not concern admissions programs for
higher education. However, some of its language is applicable to
issues in this case.
12

21
exacerbates
racial
tension,
and
‘provoke[s]
resentment,’” citing Adarand, 515 U.S. at 241).
For all these reasons, amici curiae respectfully
request that this Court grant certiorari in order for it
to reconsider whether it should continue to allow
educational institutions to defend their race-based
admissions programs by relying upon the school’s
purported educational needs for increased student
body diversity.
IV.

In the Alternative, This Court Should
Grant Certiorari To Determine Whether
Harvard’s
Race-Based
Admissions
Program Fails Strict Scrutiny Because A
Workable
Race-Neutral
Alternative
Exists.

Even if this Court is satisfied that the Bakke
line of cases is consistent with the requirements of the
Equal Protection Clause, the First Circuit erred in
finding that Harvard’s admission plan satisfied strict
scrutiny review. Specifically, Harvard failed to
comply with this Court’s rulings in the Bakke line of
cases which require Harvard to carry its burden of
showing that there was no workable race-neutral
alternative to its raced-based program. That failure
alone is enough of a reason to grant certiorari and
reverse the judgment of the First Circuit.
Under Fisher I, strict scrutiny required the
court of appeals to consider whether a race-based
admissions program is necessary. 570 U.S. at 312.
See also, Parents Involved, 551 U.S. at 734-35 (narrow
tailoring requires proof that the racial classification is

22
“necessary” to achieve the compelling interest and
that race is a “last resort”). It is not necessary to use
race if “workable race-neutral alternatives” exist.
Fisher I, 570 U.S. at 312.
At trial, Petitioner offered Simulation D into
evidence as a workable race-neutral alternative.
Under Simulation D, Harvard’s racial preferences
would be eliminated. Its preferences for children of
large donors, of alumni (legacies), and of
faculty/staff 13 would also be eliminated while its
preferences for socio-economically disadvantaged
individuals would be increased. JA.5987; JA.1491:151505:18. Simulation D would increase the combined
African American and Hispanic percentage of
admittees and would result in greater racial diversity
without using race as a factor affecting admission.
JA.5988; JA.5789. African American representation
alone would be reduced from 14% to 10%. SFFA, 980
F.3d at 194. White admissions would also decrease,
but Hispanic, Asian-American, and socio-economic
diversity would increase.
JA.5988; JA.5789.
Harvard gives preference to legacies, to the children of large
donors, and to the children of faculty/staff. The effect of these
well-connected preferences combined with Harvard’s racial
preferences lowers admission requirements for the Harvard
professor’s son and the African American surgeon’s daughter.
However, some admittees must pay the price for these
preferences. As a result, admission requirements become higher
for the son of an Asian American truck driver or the daughter of
a white waitress, even though these latter applicants are more
likely to be socio-economically disadvantaged.
Harvard’s
insistence on continuing its well-connected preferences, while
requesting a constitutional exemption from the requirements of
equal protection purportedly to achieve educational benefits
through diversity, is at best self-serving and contradictory.
13

23
Moreover, academic characteristics such as high
school GPAs and SAT scores would remain almost the
same. Id.
Harvard rejected Simulation D and the First
Circuit upheld this rejection, stating that Simulation
D was not an acceptable race-neutral alternative,
because “considering race . . . prevents diversity from
plummeting. Harvard's race-conscious admissions
program ensures that Harvard can retain the benefits
of diversity it has already achieved.” SFFA, 980 F.3d
at 194. That decline or, as the First Circuit described
it, “plummeting,” only applied to the 14% to 10% drop
in African American admittees. 14
Under the ruling in Parents Involved, schools
can pay attention to the number of minority
admittees in the past in order to determine the
number that is needed to provide a “pedagogic concept
of the level of diversity needed to obtain the asserted
educational benefits.” 551 U.S. at 726. “Working
forward from some demonstration of the level of
diversity that provides the purported benefits” is
allowable; “working backward to achieve a particular
type of racial balance” is constitutionally
impermissible. Id. at 729. But the First Circuit
adopted Harvard’s constitutionally impermissible
approach when the court rejected Simulation D.
SFFA, 980 F.3d at 194. By doing so, the court ensured
that Harvard could continue the 14% level of African
American admittees it had “already achieved.” Id.
The use of Simulation D would increase Asian American
admittees from 24% to 31% and “Hispanic and Other” admittees
from 14% to 19%. Id. at 193.

14

24
(emphasis added). Without question, therefore, both
Harvard and the First Circuit were “looking
backward” in demanding that the 14% level not be
decreased.
Harvard has a duty under strict scrutiny
review to adopt a workable race-neutral alternative if
one exists. Petitioner proved that such an alternative
did exist. However, the ruling by the First Circuit
leads to only one conclusion – once a certain level of
minority representation is achieved using race,
Harvard should be permitted to continue to use race
to maintain that level. It was clear legal error for the
First Circuit to conclude that a workable race-neutral
alternative could be rejected because that alternative
did not maintain the previous 14% racial
percentage. 15

Importantly, colleges and universities are also involved in
“racial balancing” when they attempt to achieve or maintain a
specific percentage of admittees from a racial group. Grutter 539
U.S. at 329. Racial balancing is also prohibited by strict
scrutiny. Fisher I, 570 U.S. at 311. Harvard’s demand not to
decrease the African American percentage from the 14% level
achieved in the past is impermissible on the related ground of
“racial balancing” as well.

15

25
CONCLUSION
For the foregoing reasons, amici curiae
respectfully request that this Court grant Petitioner’s
writ for certiorari.
Respectfully submitted,
ROBERT D. POPPER
ERIC W. LEE
JUDICIAL WATCH, INC.
425 Third Street, SW
Suite 800
Washington, DC 20024
(202) 646-5172
T. RUSSELL NOBILE
JUDICIAL WATCH, INC.
P.O. Box 6592
Gulfport, MS 39506
(202) 527-9866

H. CHRISTOPHER COATES
Counsel of Record
LAW OFFICES OF H.
CHRISTOPHER COATES
934 Compass Point
Charleston, SC 29412
Phone: (843) 609-7080
curriecoates@gmail.com

